<html>
<title> - ENHANCING VEHICLE TECHNOLOGY TO PREVENT DRUNK DRIVING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         ENHANCING VEHICLE TECHNOLOGY TO PREVENT DRUNK DRIVING

=======================================================================

                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON CONSUMER PROTECTION AND COMMERCE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2019

                               __________

                           Serial No. 116-19
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                        


      Printed for the use of the Committee on Energy and Commerce

                   govinfo.gov/committee/house-energy
                        energycommerce.house.gov
                        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-603 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                       
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                     FRANK PALLONE, Jr., New Jersey
                                 Chairman
BOBBY L. RUSH, Illinois              GREG WALDEN, Oregon
ANNA G. ESHOO, California              Ranking Member
ELIOT L. ENGEL, New York             FRED UPTON, Michigan
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MIKE DOYLE, Pennsylvania             MICHAEL C. BURGESS, Texas
JAN SCHAKOWSKY, Illinois             STEVE SCALISE, Louisiana
G. K. BUTTERFIELD, North Carolina    ROBERT E. LATTA, Ohio
DORIS O. MATSUI, California          CATHY McMORRIS RODGERS, Washington
KATHY CASTOR, Florida                BRETT GUTHRIE, Kentucky
JOHN P. SARBANES, Maryland           PETE OLSON, Texas
JERRY McNERNEY, California           DAVID B. McKINLEY, West Virginia
PETER WELCH, Vermont                 ADAM KINZINGER, Illinois
BEN RAY LUJAN, New Mexico            H. MORGAN GRIFFITH, Virginia
PAUL TONKO, New York                 GUS M. BILIRAKIS, Florida
YVETTE D. CLARKE, New York, Vice     BILL JOHNSON, Ohio
    Chair                            BILLY LONG, Missouri
DAVID LOEBSACK, Iowa                 LARRY BUCSHON, Indiana
KURT SCHRADER, Oregon                BILL FLORES, Texas
JOSEPH P. KENNEDY III,               SUSAN W. BROOKS, Indiana
    Massachusetts                    MARKWAYNE MULLIN, Oklahoma
TONY CARDENAS, California            RICHARD HUDSON, North Carolina
RAUL RUIZ, California                TIM WALBERG, Michigan
SCOTT H. PETERS, California          EARL L. ``BUDDY'' CARTER, Georgia
DEBBIE DINGELL, Michigan             JEFF DUNCAN, South Carolina
MARC A. VEASEY, Texas                GREG GIANFORTE, Montana
ANN M. KUSTER, New Hampshire
ROBIN L. KELLY, Illinois
NANETTE DIAZ BARRAGAN, California
A. DONALD McEACHIN, Virginia
LISA BLUNT ROCHESTER, Delaware
DARREN SOTO, Florida
TOM O'HALLERAN, Arizona
                                 ------                                

                           Professional Staff

                   JEFFREY C. CARROLL, Staff Director
                TIFFANY GUARASCIO, Deputy Staff Director
                MIKE BLOOMQUIST, Minority Staff Director
            Subcommittee on Consumer Protection and Commerce

                        JAN SCHAKOWSKY, Illinois
                                Chairwoman
KATHY CASTOR, Florida                CATHY McMORRIS RODGERS, Washington
MARC A. VEASEY, Texas                  Ranking Member
ROBIN L. KELLY, Illinois             FRED UPTON, Michigan
TOM O'HALLERAN, Arizona              MICHAEL C. BURGESS, Texas
BEN RAY LUJAN, New Mexico            ROBERT E. LATTA, Ohio
TONY CARDENAS, California, Vice      BRETT GUTHRIE, Kentucky
    Chair                            LARRY BUCSHON, Indiana
LISA BLUNT ROCHESTER, Delaware       RICHARD HUDSON, North Carolina
DARREN SOTO, Florida                 EARL L. ``BUDDY'' CARTER, Georgia
BOBBY L. RUSH, Illinois              GREG GIANFORTE, Montana
DORIS O. MATSUI, California          GREG WALDEN, Oregon (ex officio)
JERRY McNERNEY, California
DEBBIE DINGELL, Michigan
FRANK PALLONE, Jr., New Jersey (ex 
    officio)
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Jan Schakowsky, a Representative in Congress from the State 
  of Illinois, opening statement.................................     1
    Prepared statement...........................................     2
Hon. Cathy McMorris Rodgers, a Representative in Congress from 
  the State of Washington, opening statement.....................     3
    Prepared statement...........................................     5
Hon. Debbie Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     6
Hon. Robert E. Latta, a Representative in Congress from the State 
  of Ohio, opening statement.....................................     6
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    82
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................    83

                               Witnesses

Helen Witty, National President, Mothers Against Drunk Driving...     8
    Prepared statement...........................................    11
Robert Strassburger, President and Chief Executive Officer, 
  Automotive Coalition for Traffic Safety........................    18
    Prepared statement...........................................    20
Joan Claybrook, Board Member, Advocates for Highway and Auto 
  Safety, and Former Administrator, National Highway Traffic 
  Safety Administration..........................................    32
    Prepared statement...........................................    34
    Additional material submitted for the record.................    55
    Answers to submitted questions...............................    95
David Kelly, Executive Director, Coalition of Ignition Interlock 
  Manufacturers..................................................    61
    Prepared statement...........................................    63
    Answers to submitted questions...............................    97

                           Submitted Material

Report, ``Getting to Zero Alcohol-Impaired Driving Fatalities: A 
  Comprehensive Approach to a Persistent Problem (2018),'' 
  National Academies of Science, Engineering, and Medicine, 
  submitted by Mrs. Dingell \1\
Letter of March 13 2019, from Coalition for Future Mobility to 
  Mr. Pallone, et al., submitted by Ms. Schakowsky...............    85
Letter of March 14, 2019, from Gary Shapiro, President and Chief 
  Executive Officer, Consumer Technology Association, to Mr. 
  Pallone, et al., submitted by Ms. Schakowsky...................    89

----------

\1\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF17/20190314/109109/
HHRG-116-IF17-20190314-SD004.pdf.
Letter of March 14, 2019, from Robbie Diamond, President and 
  Chief Executive Officer, Securing America's Future Energy, to 
  Mr. Pallone, et al., submitted by Ms. Schakowsky...............    91
Letter of March 14, 2019, from John D. Bodnovich, Executive 
  Director, American Beverage Licensees, to Ms. Schakowsky and 
  Mrs. Rodgers, submitted by Ms. Schakowsky......................    93

 
         ENHANCING VEHICLE TECHNOLOGY TO PREVENT DRUNK DRIVING

                              ----------                              


                        THURSDAY, MARCH 14, 2019

                  House of Representatives,
  Subcommittee on Consumer Protection and Commerce,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
the John D. Dingell Room 2123, Rayburn House Office Building, 
Hon. Jan Schakowsky (chairwoman of the subcommittee) presiding.
    Members present: Representatives Schakowsky, Castor, 
O'Halleran, Cardenas, Soto, Rush, Matsui, McNerney, Dingell, 
Rodgers (subcommittee ranking member), Burgess, Latta, Guthrie, 
Bucshon, Hudson, and Carter.
    Staff present: Sharon Davis, Chief Clerk; Evan Gilbert, 
Press Assistant; Lisa Goldman, Counsel; Waverly Gordon, Deputy 
Chief Counsel; Alex Hoehn-Saric, Chief Counsel, Communications 
and Technology; Zach Kahan, Outreach and Member Service 
Coordinator; Kaitlyn Peel, Digital Director; Chloe Rodriguez, 
Policy Analyst; Andrew Souvall, Director of Communications, 
Outreach, and Member Services; Mike Bloomquist, Minority Staff 
Director; Jordan Davis, Minority Senior Advisor; Melissa 
Froelich, Minority Chief Counsel, Consumer Protection and 
Commerce; Peter Kielty, Minority General Counsel; Bijan 
Koohmaraie, Minority Counsel, Consumer Protection and Commerce; 
Ryan Long, Minority Deputy Staff Director; and Brannon Rains, 
Minority Staff Assistant.
    Ms. Schakowsky. The Subcommittee on Consumer Protection and 
Commerce will now come to order.
    I want to thank everybody for coming on this going-away 
day. My plan is that we will get as many opening statements as 
we can before votes, and then, hopefully, all of you will come 
back to talk to our witnesses.
    So, I recognize myself for 5 minutes.

 OPENING STATEMENT OF HON. JAN SCHAKOWSKY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    As the Consumer Protection Subcommittee, we are committed 
to ensuring the safety of the American people. We have 
addressed a number of auto safety issues over the years, 
holding hearings on the Takata airbag defects and the GM 
ignition switch defect. We had a hearing last year on drugged 
driving, which has been on the rise in recent years. But we 
haven't really addressed the No. 1 cause of death on America's 
roads, drunk driving.
    More than 10,000 deaths, about 30 percent of all fatal 
crashes, are caused by drunk driving each year. That translates 
into almost 30 people dying in drunk-driving crashes every day 
or one person every 4 minutes in 2017. That is when the data is 
from. And that is not counting the number of people who are 
seriously injured in drunk-driving crashes.
    The National Highway Transportation Safety Administration, 
NHTSA, conducted a study in 2016 that found that, quote, 
``Alcohol was the largest contributor to crashes.'' Unquote. We 
all know drunk driving is a problem, but whether it is because 
they are too intoxicated to make reasonable judgments or they 
inaccurately estimate their level of intoxication, people are 
still making the choice to drive drunk.
    So, today we are exploring some technologies that make it 
harder for people to make the wrong decision. Currently, 
ignition interlocks are available for installation in cars on 
the road. These are devices that can detect levels of alcohol 
in a person's system, and if above the legal limit, will 
prevent a car from starting. Generally, this involves breathing 
into a tube and waiting for an analysis to be completed, which 
may take a little time. This, too, has been effective in 
preventing individuals convicted of drunk driving from doing so 
again, as long as the device is in his or her car.
    All States have some form of ignition interlock laws, some 
making it an option/condition after conviction, and some 
requiring them for repeat offenders, and some requiring them 
for all offenders. Often, people who have been convicted of 
driving under the influence of alcohol will still drive, even 
if their license is suspended or taken away. They still need to 
drive to get to work or run necessary errands. Interlock 
devices allow them to drive when they need to, but stop them 
from putting themselves and others in danger by preventing them 
from driving drunk.
    So, I look forward to hearing today whether expanded use of 
interlock devices can help lower the number of drunk-driving 
crashes. Today's interlock devices, however, are not enough. 
They are too intrusive for general use, and that is why NHTSA 
has been working with the auto industry to develop more 
integrated technologies, known as Driver Alcohol Detention 
Systems for Safety, or DADSS, that can be deployed even more 
expansively.
    I know my friend and colleague, Debbie Dingell, will be 
recognized, but it should be noted that several of her 
constituents recently died in a tragic accident because of 
drunk driving. Debbie has introduced legislation aimed at 
curbing drunk driving. And so I thank her for her efforts to 
make our roads safer, and I stand with you as an ally in your 
fight.
    NHTSA can and should be pressing automakers to develop and 
deploy this technology faster, these different technologies 
faster, and let's stop wasting time and start to take 
meaningful steps to turn back the tide on these tragedies.
    So, I want to thank all our witnesses for coming today.
    [The prepared statement of Ms. Schakowsky follows:]

               Prepared Statement of Hon. Jan Schakowsky

    As the Consumer Protection Subcommittee, we are committed 
to ensuring the safety of the American people. We have 
addressed a number of auto safety issues over the years--
holding hearings on the Takata airbag defects and the GM 
ignition switch defect. We had a hearing last year on drugged 
driving, which has been on the rise in recent years.
    We have not really addressed the number one cause of death 
on America's roadways--drunk driving. More than 10,000 deaths--
about 30 percent of all fatal crashes--are caused by drunk 
driving each year. That translates to almost 30 people dying in 
drunk-driving crashes every day or one person every 48 minutes 
in 2017. And that's not counting the number of people who are 
seriously injured in drunk-driving crashes.
    The National Highway Transportation Safety Administration 
(NHSTA) conducted a study in 2016 that found ``alcohol was the 
largest contributor to crash risk.''
    We all know drunk driving is a problem. But whether it's 
because they are too intoxicated to make a reasonable decision, 
or they inaccurately estimate their level intoxication, people 
are still making the choice to drive drunk.
    So today we are exploring some technologies that make it 
harder for people to make the wrong decision.
    Currently, ignition interlocks are available for 
installation in cars on the road. These are devices that can 
detect levels of alcohol in a person's system and if above the 
legal limit, will prevent a car from starting. Generally, this 
involves breathing into a tube and waiting for an analysis to 
be completed, which may take a little time. This tool has been 
effective in preventing individuals convicted of drunk driving 
from doing do again as long as the device is on his or her car.
    All States have ignition interlock laws-some making it an 
optional condition after conviction, some requiring them for 
repeat offenders, and some requiring them for all offenders.
    Often, people who have been convicted of driving under the 
influence of alcohol will still drive even if their license is 
suspended or taken. They still need to drive to get to work or 
run necessary errands. Interlock devices allow them to drive 
where they need to but stop them from putting themselves and 
others in danger by preventing them from driving drunk.
    I look forward to hearing today whether expanded use of 
interlock devices can help lower the numbers of drunk-driving 
crashes.
    Today's interlock devices, however, are not enough. They 
are too intrusive for general usage. And that is why NHTSA has 
been working with the auto industry to develop more integrated 
technology, known as Driver Alcohol Detection System for Safety 
or DADSS, that can be deployed even more expansively.
    I know my friend and colleague Debbie Dingell will be 
recognized, but it should be noted that several of her 
constituents recently died in a tragic accident because of 
drunk driving. Debbie has introduced legislation aimed at 
curbing drunk driving, and so I thank her for her efforts to 
make roads safer. And stand with you as an ally in your fight.
    NHTSA can and should be pressing automakers to develop and 
deploy this technology faster. Let's stop wasting time and 
start to take meaningful steps to turn back the tide on these 
tragedies.
    Thank you. I now yield 5 minutes to the ranking member of 
the subcommittee, Cathy McMorris Rodgers.

    Ms. Schakowsky. And I yield 5 minutes to the ranking member 
of the subcommittee, Cathy McMorris Rodgers.

      OPENING STATEMENT OF HON. CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. Rodgers. Thank you, Madam Chair.
    Good morning, everyone, and welcome to the Consumer 
Protection and Commerce Subcommittee hearing on enhancing 
vehicle technology to prevent drunk driving.
    ``Drive sober or get pulled over'' is a phrase we all 
remember hearing in the classroom or on television, and it 
remains just as important a message today as it ever was. Drunk 
driving is a significant public health concern that tragically 
cuts life short for so many, not just those who make the 
reckless decision to get behind the wheel after consuming 
alcohol, but our family and friends on the road in the wrong 
place at the wrong time.
    Although alcohol-impaired driving has decreased by about 30 
percent over the last three decades, it remains a serious and 
fatal risk on our roadways, claiming almost 11,000 lives each 
year. The status is not acceptable. We can, and we must, do 
better.
    Drug-impaired driving is also on the rise. Drug use and 
abuse have increasingly become central social issues. On 
opioids, last Congress we passed a comprehensive bipartisan 
package to help combat the epidemic, expand access to 
treatment, and protect our communities. But opioids aren't the 
only drug making our roads less safe. So is marijuana. In fact, 
marijuana is the most common drug found in fatally injured 
drivers. It increases drowsiness and decreases reaction speed, 
both of which severely limit a driver's ability to operate a 
vehicle safely.
    In 2012, my home State of Washington legalized marijuana, 
and Washingtonians have seen decreases in roadway safety since 
then. In 2017, the Northwest High Intensity Drug Trafficking 
Area conducted a report of the effects of marijuana. The report 
produced some pretty disturbing results. One in five 10th-
graders, one in four 12th-graders reported riding with a driver 
who had been using marijuana. One in six 12th-graders admitted 
to driving a vehicle within 3 hours of consuming marijuana. The 
percentage of marijuana-positive drivers has more than doubled 
from 7.8 percent to 18.9 percent, and fatal crashes involving 
marijuana have spiked to almost 13 percent from 7.8 percent 
prior to legalization. The increase in recreational use of 
marijuana poses a serious threat to roadway safety.
    We must learn from the lessons we have seen in my home 
State and make sure we are focusing on addressing drug-impaired 
driving and alcohol-impaired driving. On this committee, it is 
our job to explore how technology and innovation can improve 
people's lives, even save their lives. For example, ride-
sharing technology platforms have given people better and more 
options to get home safely. By providing an easy and user-
friendly option, more people are opting for ride sharing rather 
than getting behind the wheel after drinking or taking drugs. 
The subcommittee has been working on these issues for years, 
highlighting the sharing economy at a disruptor series in 2015.
    We should not lose sight of the fact that we lose about 
40,000 Americans on our roads every year. Ninety-four percent 
of car crashes are caused by human error. Whether it be driving 
while tired, distracted, or after drinking or taking drugs, 
human error causes crashes. Self-driving cars offer a 
technology-based solution that will save lives if the 
Government regulations are updated from their 1970s approach 
over brake pedals and steering wheels.
    I joined Republican Leader Walden and Representative Latta 
on a letter to Chairman Pallone yesterday asking that we 
continue our work in a bipartisan manner again this Congress.
    I commend Chair Schakowsky for her leadership on this 
important issue and look forward to working with you.
    I want to thank our distinguished panel for your 
willingness to engage in this discussion today, and I would 
further welcome discussions with leaders who offer other 
technology-based solutions to protect Americans.
    I yield back.
    [The prepared statement of Mrs. Rodgers follows:]

           Prepared Statement of Hon. Cathy McMorris Rodgers

    Good morning and welcome to the Consumer Protection and 
Commerce Subcommittee hearing on Enhancing Vehicle Technology 
to Prevent Drunk Driving. ``Drive sober or get pulled over'' is 
a phrase we all remember hearing in the classroom or on 
television and it remains just as important a message today as 
it ever has.
    Drunk driving is a significant public health concern that 
tragically cuts life short for so many--not just those that 
make the reckless decision to get behind the wheel after 
consuming alcohol but our family and friends on the road in the 
wrong place at the wrong time. Although alcohol impaired 
driving has decreased by about 30 percent over the last three 
decades it remains a serious and fatal risk on our roadways 
claiming almost 11,000 lives each year. The status quo is not 
acceptable. We can, and we must do better.
    Drug-impaired driving is also on the rise. Drug use and 
abuse have increasingly become central social issues. On 
opioids, last Congress we passed a comprehensive bipartisan 
package to help combat the epidemic, expand access to 
treatment, and protect our communities. But opioids aren't the 
only drug making our roads less safe--so is marijuana. In fact, 
marijuana is the most common drug found in fatally injured 
drivers. It increases drowsiness and decreases reaction speed--
both of which severely limit a driver's ability to operate a 
vehicle safely.
    In 2012, my home State of Washington legalized marijuana 
and Washingtonians have seen decreases in roadway safety since 
then. In 2017, the Northwest High Intensity Drug Trafficking 
Area conducted a report on the effects of marijuana. The report 
produced some pretty disturbing results. One in five 10th-
graders and one in four 12th-graders reported riding with a 
driver who had been using marijuana. One in six 12th-graders 
admitted to driving a vehicle within 3 hours of consuming 
marijuana.
    The percentage of marijuana-positive drivers has more than 
doubled from 7.8 percent to 18.9 percent and fatal crashes 
involving marijuana have spiked to almost 13 percent from 7.8 
percent prior to legalization. The increase in recreational use 
of marijuana poses a serious threat to roadway safety. We must 
learn from the lessons we've seen in my home State and make 
sure we are focusing on addressing drug-impaired driving and 
alcohol-impaired driving.
    On this committee, it's our job to explore how technology 
and innovation can improve people's lives--even save their 
lives. For example, ridesharing technology platforms have given 
people better and more options to get home safely. By providing 
an easy and user-friendly option, more people are opting for 
ridesharing rather than getting behind the wheel after drinking 
or taking drugs. The subcommittee has been working on these 
issues for years, highlighting the sharing economy at a 
Disrupter Series hearing in 2015.
    We should not lose sight of the fact that we lose almost 
40,000 Americans on our roads every year. 94 percent of car 
crashes are caused by human error. Whether it be driving while 
tired, distracted, or, after drinking or taking drugs, human 
error causes crashes. Self-driving cars offer a technology-
based solution that will save lives if the Government 
regulations are updated from their 1970s approach over brake 
pedals and steering wheels.
    I joined Republican Leader Walden and Representative Latta 
on a letter to Chairman Pallone yesterday asking that we 
continue work on the issue in a bipartisan manner again this 
Congress.
    I commend Chair Schakowsky for her leadership on this 
important issue and look forward to working with you. I want to 
thank our distinguished panel for your willingness to engage in 
this discussion today. I would welcome further discussions with 
leaders who offer other technology-based solutions to protect 
Americans.
    I yield back.

    Ms. Schakowsky. The gentlewoman yields back.
    The votes have been called, and it looks like we have one 
to two votes, we think about 30 minutes. So, in fact, we are 
going to recess. And I apologize to our witnesses, but we will 
be back soon.
    Thank you.
    [Recess.]
    Ms. Schakowsky. I will call the subcommittee back to order, 
and yield for an opening statement. In the absence of the 
chairman of the full committee, I am happy to yield to 
Congresswoman Dingell.

 OPENING STATEMENT OF HON. DEBBIE DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mrs. Dingell. Thank you, Chairman Schakowsky.
    And I want to really give you a sincere and heartfelt thank 
you for holding this important hearing today. As both of you 
spoke about before votes, drunk driving brings pain to families 
and communities across this country. Our community in Dearborn 
and in Michigan felt it only eight weeks ago. In January, the 
Abbas family, Issam, Rima, Ali, Isabella, and Giselle, were 
driving back from a family vacation in Florida when their car 
was struck head-on by a drunk driver. No one survived, and 
everybody in our community felt it. They were active, integral 
members of our community. But what is sad is that this story 
has been repeated for years over and over again. And Congress 
needs to step up and do something about it.
    Their deaths, and the thousands just like them each year, 
are avoidable and preventable. The technology exists to save 
lives. A little girl at the funeral came up to me--she was a 
classmate--and said, ``There is technology. Why are you not 
using it? Why won't Congress act? My friend should be here 
today.'' That statement is my heart.
    So, my question to each Member, witness, and all the public 
watching today is simple: Why aren't we using it? We need to 
explore every possible solution, including giving law 
enforcement the resources that they need to get drunk driving 
off the roads. Institute mandatory first-offender interlock 
laws across the country, and get the DADSS technology in cars 
as fast as we can.
    Nothing is going to bring back the Abbas family or the 
thousands--there are more stories in the last week. I mean, we 
should stop hearing these stories. Their lives are too 
important to forget. We need to make sure that the family that 
I know from my community, the Abbas family's death is not in 
vain, for we need to make all of these deaths an example of why 
we must act now. We must address this challenge.
    Thank you, Madam Chairman, and I yield back the balance of 
my time.
    Ms. Schakowsky. The gentlelady yields back. I now recognize 
Mr. Latta for 5 minutes for an opening statement.

OPENING STATEMENT OF HON. ROBERT E. LATTA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Latta. Well, thank you, Madam Chair, and thank you very 
much for holding this very important hearing today.
    And I thank our witnesses for being with us today.
    We have the opportunity to discuss how we can utilize 
different technologies to address and prevent drunk and drugged 
driving. Over 10,000 people lost their lives in 2017 in 
alcohol-impaired driving crashes. We have also seen a 
significant increase in the number of American drivers killed 
in vehicle crashes in which drugs were detected.
    Ninety-four percent of overall vehicle accidents are 
attributable to human errors or decisions, and we have seen a 
significant increase in the number of Americans killed in 
vehicle crashes in which drugs were detected. The statistics 
are staggering and show that it is imperative that the public 
and private sectors work together on a solution to prevent more 
tragedies.
    Amid the devastating opioid crisis, and as more States 
legalize the use of marijuana, tackling this problem is now 
more important than ever. According to the Governors Highway 
Safety Association, in 2016, the number of drivers who were 
fatally injured in accidents with drugs in their system 
surpassed the number of those with alcohol in their system for 
the very first time.
    That is why in the last Congress I recognized the 
importance of promoting and fostering innovation in self-
driving vehicle technology. As chair of this subcommittee in 
the last Congress, I introduced the bipartisan SELF DRIVE Act, 
which would have clarified the Federal and State roles in 
regulating self-driving vehicles, ensure consumer safety, 
reduce traffic-related fatalities and injuries, and improve 
mobility for individuals with disabilities.
    U.S. companies are investing major resources in the 
research and development of this technology, and the SELF DRIVE 
Act would have removed outdated regulations that were created 
when self-driving vehicles were considered science fiction. 
Since this legislation passed unanimously both in committee and 
on the floor, it is my hope that we can make this a priority 
again in this Congress.
    We have an opportunity through technology to make 
investments needed in self-driving technology as one step to 
ending senseless deaths on our roads. Until that day comes, we 
all need to do all we can to raise awareness of the dangers of 
impaired driving.
    And again, I want to thank all the members on this 
committee and all of our staff on both sides of the aisle for 
all the hard work that they did.
    With that, Madam Chair, I yield back the balance of my 
time. Thank you very much.
    [The prepared statement of Mr. Latta follows:]

               Prepared Statement of Hon. Robert E. Latta

    Good morning, I would like to thank our Chair holding this 
important hearing, and I thank our witnesses for being here. 
Today, we have the opportunity to discuss how we can utilize 
different technologies to address and prevent drunk and drugged 
driving.
    Over 10,000 people lost their lives in 2017 in alcohol-
impaired driving crashes. We have also seen a significant 
increase in the number of American drivers killed in vehicle 
crashes in which drugs were detected. Ninety-four percent of 
overall vehicle accidents are attributable to human errors or 
decisions. The statistics are staggering and show that it is 
imperative that the public and private sectors work together on 
solutions to prevent more tragedies.
    Amid the devastating opioid crisis, and as more States 
legalize the use of marijuana, tackling this problem is now 
more important than ever. According to the Governors Highway 
Safety Association, in 2016 the number of drivers who were 
fatally injured in accidents with drugs in their system 
surpassed the number of those with alcohol in their system for 
the first time.
    That is why last Congress I recognized the importance of 
promoting and fostering innovation in self-driving vehicle 
technology. As chairman of this subcommittee, I introduced the 
bipartisan SELF DRIVE Act, which would have clarified the 
Federal and State roles in regulating self-driving vehicles, 
ensured consumer safety, reduced traffic-related fatalities and 
injuries, and improved mobility for individuals with 
disabilities. U.S. companies are investing major resources in 
the research and development of this technology and the SELF 
DRIVE Act would have removed outdated regulations that were 
created when self-driving vehicles were considered science 
fiction.
    Since this legislation passed unanimously both in committee 
and on the House floor, it is my hope that we can make this a 
priority again this Congress.
    We have an opportunity through technology to make 
investments needed in self-driving technology as one step to 
ending senseless deaths on our roads. Until that day comes, we 
need to do all we can to raise awareness of the dangers of 
impaired driving. Again, I want to thank our Members and staff 
on both sides of the aisle for their bipartisan legislation.
    Thank you again, and I yield back my time.

    Ms. Schakowsky. The gentleman yields back.
    So, I would now like to introduce our witnesses for--oh, 
the Chair would like to remind Members that, pursuant to 
committee rules, all Members' written opening statements shall 
be made part of the record.
    And now, I would like to introduce the witnesses. Ms. Helen 
Witty is the national president of Mothers Against Drunk 
Driving. Dr. Robert Strassburger oversees the DADSS program 
that I am really anxious to hear more about. And the Honorable 
Joan Claybrook, board member of Advocates for Highway and Auto 
Safety and former Administrator of the National Highway Traffic 
Safety Administration, NHTSA, welcome. And Dr. David Kelly, the 
executive director of the Coalition of Ignition Interlocks 
Manufacturers.
    We want to thank all of our witnesses for joining us today, 
and we look forward to your testimony.
    At this time, the Chair will now recognize each witness for 
5 minutes. I think everybody here has testified. You know that 
you have 5 minutes, and there is a light that will go off when 
you have 1 minute left. So, I hope that you will consider 
wrapping it up.
    So, I am going to first begin, I want to begin. Ms. Witty, 
you are recognized now for 5 minutes.
    Put your microphone on. There you go.

STATEMENTS OF HELEN WITTY, NATIONAL PRESIDENT, MOTHERS AGAINST 
    DRUNK DRIVING; ROBERT STRASSBURGER, PRESIDENT AND CHIEF 
  EXECUTIVE OFFICER, AUTOMOTIVE COALITION FOR TRAFFIC SAFETY; 
 JOAN CLAYBROOK, BOARD MEMBER, ADVOCATES FOR HIGHWAY AND AUTO 
  SAFETY, AND FORMER ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC 
  SAFETY ADMINISTRATION; AND DAVID KELLY, EXECUTIVE DIRECTOR, 
         COALITION OF IGNITION INTERLOCK MANUFACTURERS

                    STATEMENT OF HELEN WITTY

    Ms. Witty. Thank you, Chairwoman Schakowsky, Ranking Member 
McMorris Rodgers, and other distinguished members of the 
committee, for holding this hearing and for inviting me to 
testify.
    I am here today on behalf of Mothers Against Drunk Driving 
and representing the millions of victims of drunk-driving 
crashes.
    I would also like to thank Representative Debbie Dingell 
for her leadership and action following the tragic death of a 
family from Dearborn. The Abbas family, Issam, Rima, Ali, 
Isabella, and Giselle, were killed by a wrong-way driver, a 
drunk driver.
    Like the Abbas family, I have a story. I am here because my 
16-year-old daughter is not. One day on a bright, sunny June 
afternoon, she went rollerblading on a well-known route and 
didn't come home. Until that day, my husband and I had the 
dream family, the one we had always dreamed of, two children, a 
girl and a boy. They were named for us. So, we had the perfect 
names, John and John and Helen and Helen Marie. It was Helen 
Marie because I didn't want to be ``Big Helen'' or ``Old 
Helen''.
    And she was my first born. So, she put me through my mom 
paces, and she was so excited when she learned that her brother 
John was due to arrive. But, yet, when she learned that he was 
there to stay and she had to learn to share, she had to get 
used to that, and she did. But the most important thing was she 
learned to love him deeply. They were not perfect children, 
perfect names maybe, but not perfect children. They were well-
adjusted and that what we had prayed for.
    An alcohol- and marijuana-impaired teen driver ended our 
dream. Helen Marie was rollerblading on a bike path when she 
looked up and saw a car on that bike path spinning toward her. 
There was nothing she could do but die very suddenly and very 
violently.
    I can't tell you what the days and months and years were 
like after that. It was preparing for my 16-year-old daughter's 
funeral. It was receiving a call asking for body parts. It was 
packing up her things that still held her essence. It was 
standing in a criminal courtroom.
    But I can tell you that MADD was there. They were there to 
show me I would not die of the grief. They were there to give 
me hope, and they also gave me a platform on which I could 
learn and, then, fight from--first, I could only lean on it--
toward a day when there's no more victims of this awful crime. 
And the technology is there. That is the frustrating part.
    H.M.'s life ended, but mine did not, and that is why I am 
here. MADD's campaign to eliminate drunk driving is our top 
priority, and the testimony I submitted contains detailed 
information about two campaign components: law enforcement and 
ignition interlocks.
    Today, I would like to specifically talk about advanced 
vehicle technologies which could one day prevent a drunk driver 
from operating a vehicle. The idea for such technology was born 
in 2006 at a MADD Technology Symposium in New Mexico. The 
concept was to integrate into the vehicle a passive alcohol 
sensor to unobtrusively detect a driver's BAC. The concept 
became a reality over a decade ago and is known as DADSS. MADD 
worked diligently to get this program started and to get the 
Government funding to advance this program.
    I represent drunk-driving victims who want this killing to 
end now. Our goal is to get this technology into vehicles for 
consumers to purchase as soon as possible. Therefore, I issue a 
challenge to the auto industry, including OEM suppliers and the 
Government, to make DADSS commercially available and for NHTSA 
to begin a rulemaking on DADSS as soon as possible.
    To aid in transferring DADSS to the auto industry for 
commercialization, a large fleet test would help expedite the 
technology. In 1982, the General Services Administration 
ordered 5,000 cars with driver-side airbags. This stimulated 
the market and resulted in widespread acceptance and use. MADD 
calls for a similar model.
    We understand that DADSS development is challenging, but 
the industry has the resources and the expertise to make safety 
advancements a reality. Auto detection technology needs to be a 
top priority. With this committee's continued leadership, we 
could soon witness historic results with 7,000 lives saved 
every year.
    Thank you, Madam Chairwoman Schakowsky and Ranking Member 
McMorris Rodgers, for allowing me the opportunity to testify on 
this important issue, and I look forward to working with all of 
you and answering any questions you have for me. Thank you.
    [The prepared statement of Ms. Witty follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you very much.
    Mr. Strassburger, you are recognized for 5 minutes.

                STATEMENT OF ROBERT STRASSBURGER

    Mr. Strassburger. Good morning, Madam Chair, Ranking Member 
McMorris Rodgers, and distinguished members of this 
subcommittee. Thank you for the opportunity to update you on 
the DADSS research program.
    Despite significant efforts over the years, drunk driving 
in the U.S. remains our most intractable safety problem. To 
help address this, automakers and NHTSA formed the DADSS 
partnership to research the widespread use of noninvasive 
technology to prevent drunk driving. Public-private 
partnerships like DADSS have led innovations that have enhanced 
our everyday lives, such as the internet, GPS, the microchip, 
and WiFi.
    The DADSS program is working to invent technology that can 
detect when a driver is impaired by alcohol and prevent the car 
from moving. Once the technology has met rigorous performance 
standards, it will be offered voluntarily as a safety option, 
similar to other driver-assist systems like automatic emergency 
braking or lane departure warning.
    DADSS technologies hold the greatest promise and are likely 
the fastest pathway for reversing the drunk-driving trends in 
the United States. Two technologies are being researched, a 
touch-based system and a breath-based system. The breath-based 
system measures alcohol as a driver breathes normally when 
seated in the driver's seat. The touch-based system measures 
blood alcohol by shining an infrared light through the 
fingertip of the driver when he or she touches a vehicle 
control like the starter button.
    A significant part of our research is focused on achieving 
the performance specifications for speed, accuracy, precision, 
and reliability of the alcohol measurement. These stringent 
specifications are necessary to ensure that no driver at or 
above .08 is allowed to drive, while also ensuring that sober 
drivers are not hassled by the technology.
    We are not modified existing or off-the-shelf technologies, 
but inventing new technology that must reliably operate over 
the 20-year life of a vehicle in the harshest environment, the 
interior of a car. One measure of our progress is DADSS patent 
portfolio, which currently includes 10 patent families 
worldwide and covering 10 patent areas. The number of 
applications exceeds 50, and nine patents have issued.
    On-road testing of the DADSS prototype sensors is underway. 
This is one of those sensors. This testing complements more 
controlled testing in the laboratory and human subject testing 
in a hospital setting. We are pleased and honored to have the 
Virginia Highway Safety Office and James River Transportation 
participate in the on-road evaluations.
    Virginia is also helping in other ways to ready the public 
for the deployment of DADSS technologies and to reduce drunk 
driving generally that I describe in my written testimony. 
Virginia is a model for other States to follow.
    While the DADSS program is currently still in the invention 
phase, we estimate that, in 2020, we will release the breath-
based DADSS technology for fleet vehicles and accessory 
applications. And in 2024, we are targeting the release of both 
the breath-based and touch-based DADSS technologies for 
consumer vehicles, depending on resource availability in 2020 
and beyond. While continued research is needed to achieve our 
2020 and our 2024 objectives, I am more optimistic than ever 
that we will be successful.
    I will be happy to answer your questions. Thank you.
    [The prepared statement of Mr. Strassburger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you.
    And now, Ms. Claybrook, you are recognized for 5 minutes.

                  STATEMENT OF JOAN CLAYBROOK

    Ms. Claybrook. Thank you so much, Madam Chairman and 
Ranking Member McMorris Rodgers. It is a pleasure to be here 
with the members of the subcommittee.
    I am Joan Claybrook, and I am representing Advocates for 
Highway and Auto Safety, a coalition of consumer health-safety 
groups and insurers who are working together to save lives by 
promoting the adoption of safety laws.
    Thank you for this opportunity to testify. The topic of the 
hearing, enhancing vehicle technology to prevent drunk driving, 
is an issue I feel passionately about and to which I have 
devoted many efforts over many, many years in the last five 
decades.
    While we have made progress over the years, the grim 
reality remains that a drunk-driving fatality occurs every 48 
minutes on average, and alcohol-impaired crashes are the 
largest single contributor to traffic fatalities in the United 
States. It is past time to address drunk driving with bold 
Federal action to facilitate wider use of these proved 
technologies, enactment of proven State laws, and enhanced law 
enforcement.
    Advocates, as always, champion proven technology, and for 
good reason. It is one of the most effective strategies 
preventing deaths and injuries. In 2012, NHTSA estimated that, 
since 1960, over 600,000 lives--and that is old data now--have 
been saved by motor vehicle safety technologies, most of them 
in Federal standards.
    One of our most recent achievements was the Federal 
requirement for rearview cameras as standard equipment in all 
new cars as of May of this last year. This landmark law never 
would have been enacted without the remarkable leadership of 
Chairwoman Schakowsky and the tireless devotion of the victim 
families. So, thank you so much, Madam Chairman.
    Similarly, we push forward to reduce drinking and driving 
with proven technologies, including ignition interlock devices, 
known as IIDs, and sensor technology. Advocates commends 
Representative Debbie Dingell--thank you so much--for your 
recent introduction of legislation to reduce drunk driving 
following the horrific crash that you mentioned in Northville, 
Michigan.
    State laws requiring all convicted drunk drivers to have an 
IID installed in their vehicle have been shown to be incredibly 
effective. As such, Congress and NHTSA should continue to 
motivate the States to enact this lifesaving law and to 
consider the addition of sanctions for States that fail to act. 
Federal legislation, enacted with the warning of financial 
sanctions, encourages every State to adopt the age 21 minimum 
drinking age, a zero tolerance BAC law for under-age drinking 
and driving, a .08 percent BAC law.
    Every one of these lifesaving Federal laws resulting in 
every State--every State--taking action. And not a single State 
lost a dollar in Federal construction money, highway 
construction money, as a result, although that was the penalty 
if they did not, because they acted.
    Additionally, the further development of sensor technology 
holds great promise to reduce drunk-driving crashes. 
Considerable research has gone into developing the Driver 
Alcohol Detection System for Safety, known as DADSS. After more 
than a decade of research and millions of dollars provided by 
Congress, NHTSA and the industry should be doing everything 
they can to get these technologies into the vehicles without 
further delay.
    But, unfortunately, they aren't, and I think the 
instrumental word that Mr. Strassburger mentioned was that they 
didn't want to have this in vehicles so that people wouldn't be 
hassled by the technology. Well, people aren't hassled by this 
technology because it doesn't come into play unless you are 
drinking and driving. So, that is a ridiculous statement. I 
call Mr. Strassburger ``the industry excuse man''. I have 
testified against him on many, many occasions. And I hope that 
he will get over this one day.
    All right. So, placing DADSS into these vehicles is 
essentially, and there is no better way to advance a potential 
lifesaving technology. I just talked to Mr. Kelly, and it is my 
estimate, based on what he said--I want to emphasize that--that 
if we put these in every single vehicle, it would be about $10 
a vehicle. Who wouldn't pay $10 to put this system into their 
vehicles, so that people would not drive drunk?
    While IIDs and sensor systems prevent drunk driving, one of 
the most important defenses, of course, for the drunk driver is 
a safe car as well. Current advanced driver assistance systems 
such as automatic emergency braking, lane departure warning, 
and blindspot detection have verified safety benefits. Yet, 
none of these systems--none of them-- are required to be 
standard equipment in all vehicles, and all of them are in some 
vehicles. So, we know that they work.
    In fact, many of these technologies are offered only on the 
most expensive models as a part of a costly luxury package. We 
urge Congress to require these proven technologies to be 
standard equipment in all new vehicles by issuing new Federal 
motor vehicle safety standards with a deadline for 
implementation, just like the rear camera.
    In addition to achieving these benefits now, these advanced 
technologies can serve as building blocks on the path to 
autonomous vehicles, which we have already heard Mr. Latta 
mention today. And I appeared recently on a panel with some 
industry individuals who said that they are a long way down the 
road. So, they are not going to be the substitute for these 
technology systems on alcohol, but----
    Ms. Schakowsky. Please wrap it up. OK?
    Ms. Claybrook. OK. Sorry.
    Ms. Schakowsky. Thank you.
    Ms. Claybrook. And I would like to commend the law 
enforcement officers who daily risk their lives in order to 
prevent drunk driving. Their lives, too, would be better off if 
we have these systems in cars.
    So, by deploying all of these known sensible solutions, we 
can once again make significant progress to reduce drunk 
driving, and I hope that the committee will not fail to act on 
this.
    Thank you.
    [The prepared statement of Ms. Claybrook follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. The gentlewoman yields back.
    And now, Mr. Kelly, you are recognized for 5 minutes.

                    STATEMENT OF DAVID KELLY

    Mr. Kelly. Good morning, Madam Chair, Ranking Member 
McMorris Rodgers, members of the subcommittee. Thank you for 
the invitation to appear before you today to discuss an issue 
that I have dedicated most of my professional career towards, 
reducing drunk driving.
    My name is David Kelly. I am the executive director of the 
Coalition of Ignition Interlock Manufacturers.
    I do want to thank Representative Dingell for the 
leadership that you have shown with your bill. I can tell you 
from firsthand experience that the family really appreciates 
what you have done and the support that you have given them. 
So, I thank you for that.
    The Coalition is composed of the Nation's leading companies 
that manufacture ignition interlock devices. These devices 
prohibit alcohol-impaired drivers from starting their vehicle. 
We combine our members' expertise, innovation, and experience 
to speak with one voice to reduce alcohol-related vehicle 
fatalities.
    Ignition interlocks do what no other technology available 
today does. They stop drunk drivers from starting their 
vehicle. An ignition interlock device is a breathalyzer, just 
like this, that is installed in a drunk driver offender's 
vehicle to prevent drinking and driving.
    Interlocks must meet specific standards that are set by 
NHTSA. All of the breath test data is stored in the device and 
is sent to the monitoring agency that is subscribed by that 
State.
    Interlocks are a cost-effective and innovative solution 
designed to keep our public roadways safe. At a cost of less 
than $3 per day, paid for by the offender, interlocks provide a 
safety blanket for the cost of a cup of coffee, while freeing 
up law enforcement to pursue other crimes.
    The supporters of ignition interlocks are a who's who in 
traffic safety: MADD, AAA, Advocates, the Alliance for 
Automobile Manufacturers, American Trauma Society, CDC, the 
Governors Highway Safety Association, the Insurance Institute 
for Highway Safety, the National Safety Council, 
Responsibility.org, just to name a few. All of these 
organizations actively support ignition interlock devices and 
first-offender laws.
    Many convicted drunk drivers, however, continue to drive on 
a suspended license because they must in order to keep their 
jobs, take care of their families, or continue with school. 
Interlocks provide an opportunity for offenders to continue to 
drive legally and safely to successfully get on with their 
lives.
    The Coalition works with policymakers across the country to 
provide the latest, credible, factual information on ignition 
interlock devices. Our members are at the forefront of 
effective ignition interlock programs in every State to deploy 
this lifesaving technology. According to MADD, over the last 
decade, interlocks have stopped 2.7 million attempts to drive 
drunk--2.7 million over the last decade.
    Our challenge is to get all 50 States to adopt first-
offender ignition interlock laws. Currently, 32 States have 
first-offender laws on the books, and we are working with the 
remaining 18 States to pass first-offender ignition interlock 
laws.
    However, we also advocate for other improvements to State 
laws. This would include an immediate reinstatement measure 
where you can get your driving privileges the day after you get 
arrested or compliance-based removal where you do not have the 
device removed from your vehicle until you can demonstrate a 
changed behavior and a 30-day--60-day, depending on State law--
change of behavior where you have an alcohol-free experience 
with the device.
    Some of our cameras have cameras, have GPS. We have lots of 
advanced technology in the devices. So, this is a lot of 
technology in a very small handset.
    Currently, States that have passed first-offender ignition 
interlock laws should be awarded an incentive grant from NHTSA. 
That was authorized in the last highway bill. However, the 
NHTSA rules for awarding these grants are needlessly 
complicated and inflexible. As a result, only seven of the 32 
States with first-offender laws have even qualified for the 
grant money. We are hoping to streamline that process in the 
next authorization.
    One of the other things that we need to think about in the 
next authorization is law enforcement, providing them more 
funds, as has been talked about, and also looking at how we are 
going to get more arrests. We know drunk-driving arrests are 
down over the past decade. We need to reverse this trend.
    There are other technologies being developed and supported 
by many in the safety community. While these technologies hold 
promise, it is important to note that the only commercially 
available technology that exists today to prevent an impaired 
driver from starting their vehicle is the ignition interlock. 
Technology will continue to evolve, including in the interlock 
industry. As a safety community, we must be prepared to adapt 
to emerging technologies. However, until they are ready to be 
deployed, we can't forget what is proven and will likely be the 
only technology available to prevent drunk driving for the 
foreseeable future.
    Thank you.
    [The prepared statement of Mr. Kelly follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Schakowsky. Thank you so much.
    And now, we will begin 5 minutes of Member questions, and I 
will recognize myself to begin.
    I wanted to thank you, Ms. Witty, for the dedication that 
you have had over the years now and your compelling story about 
your daughter. Moms, everybody knows moms, and I'm just 
wondering, the No. 1 priority, obviously, is to stop drunk 
drivers. Is your No. 1 priority in that category that solutions 
like DADSS are necessary?
    Ms. Witty. Yes, DADSS needs to be commercialized and 
deployed in a large fleet, so that more people hear about it. 
Safety just is not an option. We need to stop the killing.
    Here she is. Here is my rock star.
    And what a beautiful way to use technology. Like 
Representative Dingell said, why don't we use the technology? 
And so, yes.
    Ms. Schakowsky. Thank you.
    So, Mr. Strassburger, the technology being developed for 
the DADSS program shows some real potential for saving lives, 
but progress seems to have stalled. And I would like to hear 
more from you about the progress of the program.
    Mr. Strassburger. Thank you, Madam Chair.
    Progress is anything but stalled. We have made significant 
progress with the breath-based technology, as I mentioned in my 
statement and in my testimony. We are targeting releasing the 
breath-based technology in 2020 for fleet applications.
    I support and agree, and I think it is a constructive 
suggestion, that this technology be deployed in GSA vehicles, 
and would look forward to having a discussion about how we can 
make that happen, how that should be structured as quickly as 
possible. I agree that that would help further deployment.
    Ms. Schakowsky. Can I just ask you a question?
    Mr. Strassburger. Yes.
    Ms. Schakowsky. Can someone disconnect, not deploy--the 
driver I am talking about--I mean, is this something that can 
be overridden by the individual in the car?
    Mr. Strassburger. The design of DADSS is intended not to be 
overridden by the driver. And, in fact, our performance 
specifications are such that we would make that very difficult. 
However, we are looking at different operating scenarios where, 
under extreme circumstances, it might need to be overridden, 
and then, if it is, what followup action should be taken by the 
driver. For example, performance of the vehicle is degraded 
until they see a dealer to have the system restored, what have 
you.
    Ms. Schakowsky. Let me talk to Ms. Claybrook, who has 
certainly been the lifelong advocate on auto safety. Do you 
have any concerns about the DADSS program or the compliance of 
or willingness of the industry to help move that forward?
    Ms. Claybrook. I don't know what is the matter with the 
industry on this issue. This issue came up when I was NHTSA 
Administrator in the 1970s. John DeLorean supported it in the 
1970s and '80s on his experimental car, and he was a former 
General Motors executive. Now we are talking about this has 
been an active partnership since 2006. 2006, that is 13 years 
ago. Where is this system? It didn't take that long to produce 
airbags. Airbags are a lot more complicated than this, a lot 
more complicated, and they cost a lot more. So, why isn't this 
system in every car? I do not understand that.
    I think this committee should pass a law that requires 
NHTSA to issue a rule within 3 years to have them in every 
single car in America. What is the problem? We have so many 
people who drive drunk, and we can't figure out who they are 
one by one. If we wait until they kill somebody or harm 
somebody before a judge requires them to put this system in 
their car--and there are 18 States that still don't do that--it 
is just like a morass. Why not just do the simple thing?
    And plus the fact they have to be wired into the car. The 
manufacturer should put them in with their wiring as standard 
equipment in every single car in America. If the DADSS system, 
then, further develops and we feel we can use that, then let's 
use that. But I don't understand this. It just is impossible. I 
mean, it is a killer. This is a killer, and the auto industry 
is fostering the deaths of these people, in my view.
    Ms. Schakowsky. Let me quickly just get to Mr. Kelly. Is 
this a passive system? I am not quite understanding how this 
works.
    Mr. Kelly. So, it is an active system. And so, there is a 
wire that would come out of the bottom of the handset that 
would go into the ignition system. So, as you turn the car, you 
take a test. When you pass the test, it completes the circuit 
and the car then starts.
    Ms. Schakowsky. What if you don't do the test?
    Mr. Kelly. The car doesn't start.
    Ms. Schakowsky. Oh, OK. I understand. So, it is really not 
passive. You are required to do it?
    Mr. Kelly. It is active.
    Ms. Schakowsky. OK. I yield back. And now, I yield to our 
ranking member for 5 minutes.
    Mrs. Rodgers. Thank you, Madam Chair.
    Ms. Witty, I, too, want to thank you for sharing your 
daughter's story. It is heartbreaking, and I appreciate your 
being here today.
    I wanted to hear more about MADD's work with self-driving 
vehicle technology companies. Do you believe that self-driving 
vehicles could help reduce the number of alcohol-related 
fatalities on our roadways?
    Ms. Witty. Absolutely, yes. We support self-driving 
vehicles. The problem is we don't know when that is going to be 
possible. That is in the future. The DADSS program is right 
now. We could do this. If DADSS was a top priority, it would be 
in cars, and we could save 7,000 lives a year. Yes, absolutely. 
AVs, wonderful, but it may be decades away. Now we have got 
this. Let's stop the killing and save the lives we can today.
    Mrs. Rodgers. Are there any lessons we have learned from 
all the important work done by MADD and others to address drunk 
driving that you think would apply to drug-impaired driving?
    Ms. Witty. Absolutely, yes. Yes. It is frustrating for me 
because my daughter was killed be a teenager who was impaired 
on alcohol and marijuana both. Polydrug use is a huge issue. 
But, right now, we have the science to stop the drunk part, 
which they are still saying is the No. 1 killer. That is what 
worries me so. Often, you know, oh, we have stopped focusing on 
that. And the deaths are rising, almost 11,000. So, let's keep 
our focus there and, also, deal with what is emerging with 
marijuana. The science is still not there.
    Did that answer your question?
    Mrs. Rodgers. Yes. Thank you.
    Ms. Witty. I mean, you can see it. I am like there she is. 
And there are so many stories that I meet; I see in the eyes 
that the grief is there. Why can't we stop this?
    Mrs. Rodgers. Thank you.
    Ms. Witty. So, thank you.
    Mrs. Rodgers. Mr. Kelly, 94 percent of traffic accidents 
are due to human error, which includes making the decision to 
drive while impaired, either after drinking, taking drugs, or 
both. We are hearing about technologies inside traditional 
cars, but how can new technologies, like self-driving vehicles, 
help improve roadway safety and reduce impaired driving?
    Mr. Kelly. Thank you for the question.
    I think, as we have heard today, self-driving vehicles are 
going to put the traffic safety community out of business, but 
it is going to be out of business in 20 years, in 30 years, in 
40. Who knows where that is, where that technology is? And what 
we need to do, continue to work on that technology, continue to 
develop those technologies because they are very important.
    A lot of the technologies that go into self-driving 
vehicles are already being implemented on sort of a one-by-one 
basis in vehicles today. Putting them all together to get a 
vehicle that works collectively is great, but we need to make 
sure that we are dealing with what we can deal with today. And 
that is one of the reasons that we are so passionate about 
ignition interlocks and getting more of them installed on 
vehicles.
    Mrs. Rodgers. Part of the reason I asked the question is 
because in Washington State we are seeing a dramatic increase 
in the number of traffic accidents, traffic fatalities that do 
involve marijuana and other drugs.
    And I wanted to ask, while you were at NHTSA, was drug-
impaired driving a focus for the agency, and are there any 
lessons learned from drunk driving and what we have done to 
counter drunk driving that you think that we need to apply to 
drug-impaired driving or masking, which is mixing drugs and 
alcohol, that we should be thinking about here in Congress?
    Mr. Kelly. Absolutely. Unfortunately, during my time at the 
agency, the drug-impaired driving debate was much similar to 
the drug-impaired driving debate of today. The discussion was 
focused around what is a legal standard for driving while 
impaired with marijuana, and that continues to be the big 
question within the drug-impaired driving community. How are we 
going to measure? How are we going to test? What is a legal 
limit? And there is still no data, no science, and it is 
frustrating that that discussion is the same.
    One of the things that can be done, however, and as Helen 
alluded to, one of the things that can be done today, and the 
best thing that can be done today on drug-impaired driving is 
to continue in the enforcement of our current laws, continue 
enforcement of alcohol-impaired laws, get law enforcement out 
there. Because with the poly use, we know that if the person 
has been smoking marijuana or taking other drugs, the odds are 
they have also been drinking. So, if you can get the 
impairment, you can get to the drugs. That is what can be done 
today.
    Mrs. Rodgers. Thank you.
    I will yield back my time. Thank you.
    Ms. Schakowsky. The gentlewoman yields back. And now, I 
recognize Congressman Castor for 5 minutes.
    Ms. Castor. Well, thank you, Madam Chair.
    As a Floridian, this hearing is particularly timely because 
it is spring break time back home. And unfortunately, that also 
brings binge drinking and a spike in traffic crashes. Studies 
have shown that death tolls were 9 percent higher during spring 
break in spring break destinations, with more deaths among 
drivers under 25 and those traveling from out-of-State.
    In Florida, drunk driving caused more than 15 crashes per 
day in March of last year. So, this spike in deaths is an 
unfortunate and ongoing problem. And I am not sure that 
interlock devices after DUI convictions is getting to this 
problem, especially folks who are driving rental cars.
    So, Ms. Claybrook, you made it fairly clear you think that 
Congress should pass a law and that interlock devices should be 
mandated in all vehicles? Is that----
    Ms. Claybrook. I do believe that for several reasons. One 
is because they are not an irritant. I would prefer to have one 
that is sensitive to your touch. But, for now, if we can't get 
that immediately, I would say put in the interlock device.
    Ms. Castor. OK.
    Ms. Claybrook. What it does is it reminds everybody that 
they are not supposed to drink and drive.
    Ms. Castor. And how about the other witnesses? Do you 
agree?
    Ms. Witty. Me?
    Ms. Castor. Yes, go ahead.
    Ms. Witty. I want to stop the killing. I want to do what it 
takes. So, if that is what it is going to take, then that is 
what I would be for. I don't want to meet another heartbroken 
person. So, I want it stopped.
    Ms. Castor. And I really do appreciate you being here. I 
have two daughters myself.
    Ms. Witty. And I am a native Floridian.
    Ms. Castor. So, you understand what happens at spring break 
then.
    Ms. Witty. Yes, I have been working in schools for 8 years 
down in Miami. So, yes, absolutely.
    Ms. Castor. OK.
    Mr. Strassburger. Yes, in my written testimony I give some 
benefits estimates of various technology approaches, of various 
countermeasures. One of the conclusions that I make is that, if 
we are to make significant progress reversing the tide on drunk 
driving, we need vehicle-integrated technology. I am actually 
technology agnostic. We have a number of ideas here today 
between conventional interlocks, autonomous vehicles. I 
personally think DADSS is the technology that will get us there 
the fastest, but we need vehicle-integrated technology.
    Ms. Castor. Thank you.
    Mr. Kelly?
    Mr. Kelly. And I think that one of the issues that we 
grapple with in trying to get ignition interlocks installed on 
vehicles for folks that are supposed to have them, I liken the 
idea of mandating interlocks back to when we had an ignition 
interlock system for seatbelts back in the '70s. I think that 
there needs to be a lot more work done sort of proactively for 
consumer education, for consumer acceptance. That experiment 
was around for a year before Congress, then, reversed itself 
because there was such a backlash. I think there needs to be 
more work done to sort or prime the pump to get some better 
consumer acceptance before we would go down that road.
    Ms. Castor. OK.
    Ms. Claybrook. Could I comment on that?
    Ms. Castor. Yes, and I want to ask you a related question, 
too. Back home in the Tampa Bay area, we have had this 
phenomenon that is growing where drunk drivers and drivers are 
now going the wrong way on the interstates. I mean, this has 
happened over and over again. People are like, why are you 
driving the wrong way on a bridge? Why are you going onto the 
interstate? And oftentimes, it is a drunk driver and they have 
already been convicted of drunk driving.
    So, Ms. Claybrook, I mean, it is a similar issue. How do we 
get at that problem, too?
    Ms. Claybrook. Well, first of all, I hate to admit it, but 
I was around when the interlock was proposed and put into 
place. And I was working at the National Highway Traffic Safety 
Administration, and then, as a consumer advocate. The real 
issue was that it was very difficult sometimes to fasten the 
belts. It was often the passenger side belt, where you had your 
dog or your groceries that stopped the car from starting 
because the belt wasn't around your groceries.
    So, there were a lot of other problems that are quite 
dissimilar from this. And this is very simple. You blow into it 
and you are on your way. So, it is far simpler than the other 
one. I think it does need a consumer information program to 
educate people, but most people are scared to death of drunk 
drivers. They don't want to be hit by a drunk driver, and they 
are going to support whatever it is that stops people from 
driving drunk and hurting them or their children. So, I don't 
see the public relations problem with this at all.
    Ms. Castor. Thank you. I yield back.
    Ms. Schakowsky. Congressman Burgess, I recognize you for 5 
minutes.
    Mr. Burgess. Well, thank you.
    And thanks to our witnesses for being here today.
    Ms. Witty, I have a constituent who has a similar story to 
yours, unfortunately, which involved both alcohol and a 
positive qualitative test for marijuana in the driver. Because 
the blood alcohol level was below .08, no charges were filed.
    So, here's a young man who was crossing in a crosswalk and 
hit by a Jeep at night. And mom came in to see me, distraught 
as you are, as you tell your story today. And her further 
question to me is, why is it that when there are--she 
understands the .08 being the level, the legal limit. But if 
there is a confounding circumstance like a positive test for 
marijuana, a good defense attorney can make a case for, well, 
that could be remote, so it might not be active. I get that. 
But if there are those two things coupled with a death in an 
accident, that ought to be an automatic referral to a grand 
jury, and in this case it wasn't.
    So, I guess my question really is, I am appreciative of 
trying to bring the technology into play and have it be 
helpful, but are we educating our local DAs, our State folks? 
Because drunk driving has been around for a while, but the 
imposition of, as you said, polypharmacy along with the alcohol 
really can confound the issue.
    And I might just ask our two former Administrators, or 
Acting Administrator, is this something on which you focused 
during your time at the National Highway Traffic Safety 
Administration, helping the local DAs and the State officials? 
Most of these are State laws, the driving laws that are 
violated.
    I have just got to tell you, it is heartbreaking that a mom 
comes in and says, ``This is what happened and they didn't even 
prosecute.''
    Ms. Claybrook. I didn't quite understand the nature of your 
question. Are you asking whether it should be lower than .08?
    Mr. Burgess. Well, .08 does not conform to the legal 
definition of driving impaired, but .08 plus a positive 
qualitative test for a metabolite of marijuana----
    Ms. Claybrook. Yes.
    Mr. Burgess [continuing]. Coupled with the death of someone 
in the accident sequence, those things to me should elevate 
that. The accident investigation said, well, alcohol was 
tested; it is below .08. No violation. Terribly sorry, sad 
accident. Everyone goes on about their business.
    Ms. Claybrook. Well, I certainly agree with you. I think 
that it should elevate it. But I don't think that perfection 
should stop the good. And so, I would step now as fast as 
possible to try and have a vehicle-integrated system, as Mr. 
Strassburger said the industry favors, not which one, but an 
integrated vehicle system to start. And there does need to be 
more development on how do you measure the drugs and, of 
course, also some pharmaceuticals that are a problem as well, 
and so, that are permissible. So, I think that that definitely 
needs it.
    I was concerned about it when I was the Administrator. 
There wasn't as many drugs around, I have to say, when I was 
NHTSA Administrator. So, it wasn't the main focus. I was 
focused more on trying to get .08. It was then .10.
    Mr. Burgess. Sure. It came up again with--yes, ma'am, Ms. 
Witty?
    Ms. Witty. The thing is, I faced this with my daughter. The 
person who killed her was .09, but she was on marijuana. Well, 
that doesn't matter. And 20 years more, and it still is there. 
But what we have today is we have an empowered police force. A 
DRE, a drug recognition expert, can tell. I have worked with 
these officers. They can look at somebody and they can say what 
they are on and what it is. So, I would love to see an 
empowered police force that is believed in court and that could 
be empowered in court. Because I have ridden with them.
    Mr. Burgess. Yes, I need to reclaim my time, not to cut you 
off----
    Ms. Witty. OK.
    Mr. Burgess [continuing]. But my time is limited.
    Ms. Witty. OK.
    Mr. Burgess. And the chairwoman is very aggressive about 
gaveling me.
    [Laughter.]
    We spend a lot of time in this committee--and I have got 
two former NHTSA Administrators--we spent a lot of time in this 
committee, the subcommittee, on airbags and the Takata airbag 
crisis, as you recall. We also spent time with the Chevrolet 
Cobalt and the ignition switch cutting off, so the airbag was 
not powered.
    I have encountered a situation back home that I had not 
encountered before. And that is the placement of a fake airbag 
when an airbag is replaced, in this case after an accident, but 
I guess it could also occur if an airbag was recalled in one of 
these Takata sequences.
    But here was a young woman, and the story is she was 
impaired, so it fits into this discussion. But the airbag did 
not deploy because the airbag was just junk. It was a shop rag 
and some wax and some electrical tape because the airbag had 
deployed on the car previously. They had fixed the damage. It 
had cost $1,500 to put a new airbag in. Nobody wants to make 
that expense. So, they go to a cut-rate shop that says, ``We 
will get the sensor turned off,'' and as a consequence they put 
in something that looked like a module but was not a module. 
She hit a tree at 45 miles an hour, transected her aorta, and 
died.
    So, I had not encountered that before. I don't know if the 
agency, if this is something that is appearing or this is just 
a one-off.
    But, Madam Chairman, I will submit that in writing to you, 
because I know we don't have time to answer. But I hope we 
would spend some time talking about the airbag situation 
because we did not solve it 2 years ago when I was chairman.
    Ms. Claybrook. If I could just respond, Madam Chairman, 
just to say that, yes, there are examples of people doing that, 
but it is not very frequent. And so, I wouldn't focus on that 
in terms of whether or not these other systems would work well.
    Mr. Burgess. If we don't surveil, if we don't know the 
number, I mean----
    Ms. Claybrook. Well, there needs to be surveillance. And 
the insurance industry is also very helpful in that regard 
because they pay for the new airbag to be put in after the 
crash.
    Mr. Burgess. It didn't work out in this case.
    Ms. Schakowsky. So, I am going to recognize Mr. Soto, yes, 
for 5 minutes for questioning.
    Mr. Soto. Thank you, Madam Chairwoman.
    What a fascinating topic, and how technology is just 
evolving in so many areas of our society. You look at the 
original solutions to drunk driving, in addition to just not 
doing it. It was having designated drivers and taxis and the DC 
Metro, or SunRail back in our district. Now we have Uber, Lyft, 
and other ride shares that contribute a lot to helping get 
those folks off the roads; driverless vehicles eventually. And 
now, we have the Driver Alcohol Detection System for Safety 
program.
    And I really appreciate my colleague, Representative 
Castor, talking about, should it be a penalty for existing 
drunk drivers, an optional feature in cars, or should we go 
right into it and make it a standard feature, particularly if 
it was a push button?
    And the idea that, could technology make drunk driving 
obsolete? It is just a fascinating possibility in the world we 
live in. And when you think about it, it would save all these 
lives of folks who are victims who get hit, but also save a lot 
of people from making a lot of bad mistakes and getting into 
the criminal justice system by being drunk drivers, not only 
from the injuries that they could sustain, but all the legal 
expenses and that our court systems deal with on a daily basis.
    So, if we were to eventually have this technology to a 
level where it was standard equipment, and you simply, as an 
American, pushed the button, and your car doesn't start because 
you are over the limit, and we went nationwide with something 
like that, it would be great to hear from each of the 
panelists. What are the various concerns and issues that we 
should be contemplating and addressing to create a regime like 
that? And we will start from left to right, starting with Ms. 
Witty.
    Ms. Witty. The DADSS is what we would prefer for everyone 
because ignition interlock, we would agree with you then, the 
ignition interlock is more punitive and it makes the person 
work. So, exactly, the DADSS program would be passive unless 
you are breaking the law, exactly. Let's add hospitals to the 
saving the money.
    Mr. Soto. Sure.
    Ms. Witty. We wouldn't have the injuries and all those. So, 
as far as MADD is concerned, we see DADSS as what we would want 
installed because it is not there unless you are breaking the 
law.
    Mr. Soto. Sure.
    Mr. Strassburger, what concerns? What do we have to address 
if we were to put together legislation eventually that would 
address that?
    Mr. Strassburger. So, the DADSS program has always been 
structured from the beginning to build consumer awareness and 
acceptance of the technology, in sync with the technology, so 
that there is a consumer pull, coupled with an industry push 
for the technology. I actually think we can get full 
penetration faster that way.
    There may be two things that need to be taken into 
consideration with respect to a mandate. One is that we should 
not be picking technology winners and losers. We should be 
technology agnostic. And some of the technologies that we are 
talking about here today are good examples of why that should 
be.
    The other thing I want to address is that, while I will, no 
surprise, disagree with former Administrator Claybrook, not 
hassling drivers who are not the problem, who don't see they 
are the problem, is a very important consideration. And 
seatbelt interlocks in the 1970s are very instructive.
    Mr. Soto. Thank you. And we can imagine just a push button 
where it turns or not, and your car doesn't start, for every 
driver.
    It would be great to hear from you next, Ms. Claybrook, as 
well.
    Ms. Claybrook. Well, I think that the most important thing 
is for Congress to act. I think the people are just sick and 
tired of waiting and waiting and waiting. This has been going 
on since I was Administrator 40-plus years ago, and it is still 
going on today. And people are dying every single year. These 
deaths destroy families.
    You know, Ms. Witty has risen to the height above it, but 
most families are so devastated, and particularly if it is the 
breadwinner. So, we should act, and if it means that we act as 
something less than perfect, let's do that, and then, let's 
make sure that we can get to DADSS. I hope that we could. That 
would be fine with me, and I think the Government has put a 
huge amount of money in it. The industry has put money into it. 
Let's finish the job.
    Mr. Soto. And Mr. Kelly?
    Mr. Kelly. I think that in a perfect world what needs to be 
done, and one of the big landmines in sort of going with that 
type of program, is the public education. Look, nobody thinks 
they are a bad driver. Nobody thinks they are a drunk driver. 
It is always everybody else's fault. You know, you are the bad 
driver; you are the one that cut me off. It doesn't matter you 
were on your cell phone doing 30 miles an hour in the lefthand 
lane, right? But that is the mentality of the driver. And we 
need to do a lot more work to overcome that before we start 
thinking about mandating technology across every vehicle.
    Ms. Schakowsky. The gentleman yields back. And I now 
recognize Representative Bucshon for 5 minutes.
    Mr. Bucshon. Well, thank you very much.
    My wife's first cousin was killed on her first car date 
when she was 16, a drunk driver. So, this affects every family.
    I was a cardiovascular and thoracic surgeon before, and 
obviously, in my role as treating trauma patients, I have seen 
many people who have been hit or, honestly, have been driving 
themselves drunk and have been injured. This is a critical 
problem, and I would agree that it is something that we 
probably have slowly tried to address, probably too slowly. And 
it appears there is technology now that there is no excuse 
really for not addressing this issue.
    So, in that vein, Mr. Strassburger, when will the Driver 
Alcohol Detection Systems that you are working on be 
commercially available?
    Mr. Strassburger. As I mentioned both in my written 
testimony and my opening statement, we expect that, by 2020, we 
will be releasing the breath-based technology for fleet and 
accessory applications, and that by 2024----
    Mr. Bucshon. So, at that time, what you are saying is that 
you will release it, and I get that. There's a lot of 
technologies that are released, but, then, are not economically 
feasible. If you are going to add a thousand dollars to a 
$12,000 car, a lot of times for many people that is not 
economically feasible.
    So what you are saying is, by 2020, this should be not only 
available and potentially installed in vehicles, but it will be 
economically feasible to install in all levels of vehicles, not 
just high-end vehicles?
    Mr. Strassburger. That is correct. The task that we took on 
back when the campaign to eliminate drunk driving launched was 
to demonstrate the commercial feasibility, viability, and 
assure the certainty of the technology. That has been our focus 
from day one.
    Mr. Bucshon. Yes.
    Mr. Strassburger. So, it is our intention that, if we can 
demonstrate feasibility, viability, and certainty, that it will 
be used.
    Mr. Bucshon. Great. And I do agree that--and some of you 
have talked about it--that you do, unfortunately and 
frustratingly, have to have consumer buy-in on these types of 
issues, because if you don't, people will go to the extremes to 
try to subvert them. They will have friends touch the ignition 
with their finger because they think they have had too much to 
drink, and then, they will hop in the seat. Or they will have a 
kid touch it, believe it or not. So, these types of things, we 
do have to have consumer buy-in and understanding. We also have 
to make ways that people can't get around these things, if we 
decide to do it, as we should.
    Mr. Kelly, what are the particular challenges drug-impaired 
driving pose that alcohol-impaired driving does not?
    Mr. Kelly. The biggest problem is setting the legal limit, 
to define what is impairment from a drug. And each drug is 
going to have a different--whether it is marijuana or whether 
it is prescription drugs, whatever it is, each impair 
differently. And setting a legal limit is probably the No. 1 
challenge to try to define. Because as we talk about this in 
this setting, when it gets down to an enforcement perspective 
and in a prosecution perspective, judges and juries, they like 
per se levels. And that is the biggest challenge of getting 
these types of cases prosecuted.
    Mr. Bucshon. And, for example, in my district in Newburgh, 
Indiana, there was a sledding hill all the kids used, but they 
probably shouldn't. But they have been doing it for decades. It 
crosses a road, right? And so, a young lady, 16 years old, a 
couple of years ago, an impaired driver was coming down the 
road too quickly and hit her as she sledded across the road, 
where she shouldn't have been. But, you know, kids do crazy 
things. I have got four kids; I know this.
    It turns out she blew zero on her breathalyzer test in the 
field, did have some field sobriety tests that said she was 
impaired. But it actually took the prosecutors and law 
enforcement months and months and months to finally prove that 
and convict her of reckless driving, essentially, being 
impaired. But it was a struggle, right, because there was no 
definable level of impairment. So, I would agree that that is a 
substantial challenge.
    And when you see the level of use, I mean, some people have 
mentioned the data about how many high school kids are using 
this. We need to work on that.
    So, are there other things, other than breathalyzers and 
other things, that we can do in vehicles that would help with 
this? I mean, it is one thing. Maybe we shouldn't be able to 
open the door, for example. Does anybody have an opinion on 
that? Even get in the car at all?
    Ms. Claybrook. Do what?
    Mr. Bucshon. You would have, on the outside of the car, you 
would have a detection system, and if you don't pass that, you 
can't even open the car door.
    Ms. Claybrook. Oh, I see.
    Mr. Bucshon. I don't know.
    Ms. Claybrook. I like that idea. I love technology.
    Mr. Bucshon. I mean, that is an extreme.
    But, anyway, my time has expired. I appreciate your 
testimony. It is powerful. And, Ms. Witty, obviously, yours is 
very powerful testimony, and we need to take all these things 
into consideration and improve our systems.
    Thank you.
    Ms. Schakowsky. The gentleman yields back. And now, I will 
recognize Congressman McNerney for 5 minutes.
    Mr. McNerney. Well, I thank the Chair and the ranking 
member.
    I thank the witnesses for really good, excellent testimony 
this morning.
    Mr. Strassburger, could you give us an update on the test 
program, and specifically, how many cars are being tested?
    Mr. Strassburger. Yes. So, with the wonderful cooperation 
of the State of Virginia and James River Transportation, we are 
operating up to four vehicles out of two sites, the Norfolk 
Airport and the Richmond Airport. There is consideration being 
given to expanding the number of vehicles tested in what we 
call a naturalistic evaluation.
    We will also, once we have OMB approval, be testing 
anywhere between 20 and 40 vehicles in different locations 
around the country that are representative of the extreme 
environmental and other environmental conditions that you would 
normally experience in a car. So, we are working on, we are 
actually doing shakedown testing of those vehicles right now in 
anticipation of OMB clearance, but we don't have that clearance 
yet.
    Mr. McNerney. So, about how many cars does it usually take 
for an automaker to adopt a new technology?
    Mr. Strassburger. Well, it depends on the technology and 
the test matrix, but, normally, a lot more than what we are 
testing right now. We are working on securing other 
evaluations, as I have mentioned.
    Mr. McNerney. Are you looking to partner with other States? 
Is California one of the States you are----
    Mr. Strassburger. California is not. They have not 
expressed an interest, but we would love to have them.
    Mr. McNerney. So, what are the obstacles that are keeping 
from expanding to those States?
    Mr. Strassburger. We will talk to any State that wants to 
talk to us about deploying vehicles. NHTSA has issued guidance 
to every State--that was, I think, back in 2016--that allows 
them to use their Federal grant funding for DADSS programs. So, 
I am open to talk to anyone, States or otherwise.
    Mr. McNerney. So, it sounded like your testimony showed you 
are expecting another 4-year extension of the DADSS testing, is 
that right?
    Mr. Strassburger. Not testing. There is, we estimate, 
another 4 years of research that we need to conduct to be able 
to release the DADSS derivative for privately owned vehicles, 
that is, the version that would go on every car and truck that 
a consumer would buy.
    Mr. McNerney. Ms. Claybrook, what do you think about that 
timeframe?
    Ms. Claybrook. Well, what amazes me is, when the auto 
industry wants to introduce a new technology, it is zip, it is 
done. On the autonomous cars, which are so much more 
complicated than what we are talking about today, they are 
pushing hard to get autonomous. They tried to push legislation 
through last year to get autonomous cars to be tested on the 
highway and to be sold very shortly thereafter.
    So, I think that it is like a bureaucratic nightmare that 
we are experiencing here, and I see no reason why it is going 
to take this long to test such a simple system as this. And it 
is discouraging. It is discouraging to all the organizations 
that have been working on this for so many years, but it is 
like a slow walk. You know what I mean by that?
    Mr. McNerney. Right, right.
    Ms. Claybrook. So, I think it is time to get past the slow 
walk. And there is one body in this United States Government 
that can do, and that is the United States Congress.
    Mr. McNerney. Thank you for that.
    I want to follow up a little bit on what Mr. Bucshon was 
talking about, universal impaired driving. There is no 
mechanical--I mean, obviously, the blood levels are all over 
the place for different substances. There is no mechanical 
test. Is it feasible to have a mechanical test that a driver 
would have to take before turning on the key, before the key 
would turn on the ignition?
    Ms. Claybrook. You mean for drugs?
    Mr. McNerney. For impairment.
    Ms. Claybrook. For impairment. I see.
    Mr. Strassburger. That actually has been looked at in the 
1970s, for example, to measure your cognitive ability. That is 
something that we looked at. You would be given a string of 
numbers, for example.
    Mr. McNerney. Well, I think it is more important to have a 
reflex than a cognitive----
    Mr. Strassburger. But I think the approach was to look at 
your ability to drive a vehicle safely. And so, that one was 
looking at entering a string of numbers that were displayed on 
the screen. The problem with that is that most people couldn't, 
even if they were not impaired, complete that task.
    [Laughter.]
    Mr. McNerney. OK.
    Mr. Kelly. And I think that there have been some 
discussions around that as well. You know, impairment is 
impairment; let's define the impairment and let's try to test 
to the impairment. And that is one way to get around the legal 
limit levels. I know a lot of groups are talking about that, 
but action items there are very difficult to come by.
    Mr. McNerney. I yield back.
    Ms. Schakowsky. The gentleman yields back. And now, I 
recognize Congressman Carter for 5 minutes.
    Mr. Carter. Thank you, Madam Chair.
    And thank all of you for being here. What an important 
subject.
    And, Ms. Witty, God bless you. Thank you so much for your 
testimony. We appreciate it.
    Mr. Kelly, I am going to start with you. And you make a 
good point: We do need to do something, and obviously, as much 
as we can do about drunken driving. But your devices, you are 
not up to the point where you can use it for drug driving. 
Because what I want to discuss in my little bit of time here is 
the drug driving. So, you are not at that point yet? Yours is 
just with alcohol?
    Mr. Kelly. The ignition interlock, yes, right now it is 
specific to alcohol. There are some testing devices that are 
out there that can detect marijuana, but it is the presence of 
marijuana, and that is when you link it back to the impairment 
level.
    Mr. Carter. So, there are devices out there that can 
actually monitor or measure for marijuana?
    Mr. Kelly. It detects marijuana.
    Mr. Carter. Detects marijuana?
    Mr. Kelly. Detects it. And there are some other companies 
that are looking at some research and some devices that would 
be able to detect other types of drugs as well, but it is just 
a strict pointer system, as opposed to saying, OK, well, now 
you are impaired. Especially with marijuana, marijuana, first 
of all, whether you smoke it, you vape it, it is an oil, it is 
an edible----
    Mr. Carter. Right, right.
    Mr. Kelly [continuing]. It all is different.
    Mr. Carter. Right.
    Mr. Kelly. And so, even just pointing to it, it was 
marijuana, it is difficult to say, OK, well, you know, was it a 
week ago----
    Mr. Carter. OK.
    Mr. Kelly [continuing]. Or an hour ago?
    Mr. Carter. Yes, that is exactly right.
    Ms. Witty, let me ask you. I understand that in your 
testimony, when I was reading it, it said that you support 
MADD----
    Ms. Witty. Yes.
    Mr. Carter [continuing]. And the work that they are doing 
with the National Highway Traffic Safety Administration to 
address drug driving. What do you want to see come out of that 
effort? I know you are not here representing MADD, but what are 
they looking for?
    Ms. Witty. Well, what is MADD looking for?
    Mr. Carter. In the way of monitoring for drug driving?
    Ms. Witty. For drug driving?
    Mr. Carter. Right.
    Ms. Witty. I am here to support MADD.
    Mr. Carter. OK.
    Ms. Witty. And we are working hard. We are working in 
tandem. The thing is, there are so many drugs. And what I hear 
from police officers is, we can determine impairment, but for a 
certain device to determine impairment is the question.
    Mr. Carter. Right.
    Ms. Witty. So, what happens is we know what determines 
impairment through the BAC of alcohol. So, that is something we 
know. The drugs, with the number of them and how they change so 
quickly, that is an emerging issue. So, yes, but we are right 
on it. We are drunk and drugged driving.
    Mr. Carter. OK. OK.
    Ms. Witty. So, absolutely.
    Mr. Carter. Absolutely. OK. Well, here is my point: I agree 
with Dr. Bucshon. I agree with Representative McNerney that we 
need some kind of universal device that would help us or 
universal solution.
    Here is the point I want to make in full disclosure: I am 
absolutely, adamantly opposed to the recreational use of 
marijuana. Currently, I am the only pharmacist serving in 
Congress. And I will tell you, I consider it to be nothing more 
than a gateway drug. I am sorry, that is just my feeling. If 
that offends you, then that is something you will just have to 
deal with.
    But let me tell you, right now, marijuana is a Schedule I 
drug. That means that it is for investigational use only. It 
cannot have research done on it. The DEA is failing the 
American public here by not letting research take place on 
marijuana. I would hope that MADD will address that.
    We had an Attorney General who was going to address this, 
who was going to say that we have a Federal law that prohibits 
marijuana use. Yet, we have States going out legalizing the 
recreational use of marijuana. But that Attorney General is 
gone now. So, it is not being addressed.
    This is something that needs to be addressed by the DEA. 
Currently, I am writing an op-ed right now, in conjunction with 
one of my Democratic colleagues, Representative Earl 
Blumenauer, about the need for research in the medical 
marijuana. Now that is a whole different subject than the 
recreational marijuana. But we need to have the ability to do 
research. If we could do research on marijuana, we would have 
the ability to detect and maybe provide some of these and 
create some of these devices that would check this.
    So, I hope that that would be something that MADD would 
address and something that MADD will work on and help us with.
    Ms. Witty. I would hope so. Here is the issue: MADD has got 
to focus on driving, drunk and drugged driving. And so, exactly 
what you are saying. We can't get to the driving until we have 
that research done.
    Mr. Carter. Absolutely.
    Ms. Witty. So, we have to be careful that we remain 
focused. Just like we are not against alcohol; we are against 
drunk driving. We have to take the position we are not against 
marijuana; we are against marijuana and driving.
    Now don't ask to say personally. OK? I mean, I get it.
    And that is where our power is. We remain focused. But what 
my worry is, this is not a priority. We need to keep this, the 
drunk and drugged driving, a priority, so that we can stop the 
killing that is happening.
    Mr. Carter. Absolutely. A valid point. Thank you, Ms. 
Witty, again, and God bless you.
    Ms. Witty. Thank you. Thank you.
    Mr. Carter. And I yield back.
    Ms. Schakowsky. Thank you. The gentleman yields back. And I 
now recognize for 5 minutes the Honorable Debbie Dingell.
    Mrs. Dingell. I want to thank you, Madam Chairwoman.
    And before my colleague leaves, I want to say to you that I 
am a pragmatic person. Having had a sister that died of a drug 
overdose and a father that was a drug addict, I have a very 
natural reaction. But I also know it is a reality. My State 
just legalized it, and it is being legalized in State after 
State in this country, and we need to deal with it.
    Part of the problem is--Madam Chairwoman, this is totally 
off--but I would encourage us to get the Acting Administrator 
of NHTSA in, who has this as a priority. Her problem has been 
that they have not been able to test it. You are starting to 
see more. But it needs to be an absolute priority. I think 
everyone in this room is worried about impaired driving, 
period. It is killing people.
    So, pragmatically, you are absolutely right. I am having to 
deal with it is legalized in Michigan now, and I want to make 
sure we keep people safe in the process. So, I want to say 
that.
    Now I want to go to drunk driving, which we do know, we do 
have the technology, and it is killing people. So, while we 
have got to get there--and I want to thank my colleagues on the 
Republican side, for I think today has truly been a very 
bipartisan hearing--we have got a problem. And that is why we 
are here. And we have had a problem since the '70s or the '60s 
and the '50s. But, as Joan Claybrook says, we have been talking 
about it since then.
    I would also agree with Mr. Kelly that we do need a public 
relations campaign because I don't remember this--some people 
think I am old; I am seasoned, but not old; you are seasoned 
and not old, either, Ms. Claybrook--but we still to this day 
hear about that campaign to require seatbelts being buckled. 
And it is used as an excuse for everything. And we have got to 
stop using it. It is now 2019; it is not the 1970s, and people 
are dying and the technology exists. So, I am looking at that 
little girl who said to me, ``It exists. Why aren't we using 
it?''
    I thank all of you for being here.
    Mr. Strassburger, you answered some questions about how 
many are being currently tested. But what I want to figure out 
is how we are going to get this from limited field testing to 
something that is placed in the vehicles. I totally agree the 4 
years is just way too long. We keep having that excuse.
    And you said California--you got asked a question about 
whether California was one of those States. Have you gone to 
California? What are you doing to actively go out and market it 
and to accelerate it?
    Mr. Strassburger. So, what we are doing, number one is just 
next week I am meeting with all of the OEMs to update them on 
this technology and tell them that, now that we are moving to 
fleet or see the time for fleet deployments, that they should 
begin to consider including this in their own program plans and 
package-protect for the technology.
    Next month, we are at the National Fleet Administrators 
Conference in Kentucky, meeting with them and trying to get 
this deployed through fleets, et cetera.
    Mrs. Dingell. I don't want to interrupt, but I am going to 
have you give us more answers because I have only got 2 minutes 
left.
    But how many more vehicles do you need to get this solid 
testing data?
    Mr. Strassburger. I think that the suggestion that Ms. 
Witty made about the GSA fleet is an excellent one.
    Mrs. Dingell. OK. So, I am going to ask all of you, what 
should Congress be doing to accelerate the pace of deployment 
for DADSS?
    Mr. Strassburger. Well, in our case, it would be to 
continue to fund this research, and if we have additional 
funding----
    Mrs. Dingell. OK. We keep funding it, but it is not getting 
there.
    Ms. Claybrook or Mr. Kelly, would you care to comment?
    Ms. Claybrook. What I would say is that the Congress should 
mandate it with a date certain and pick a date when these 
systems have to be in cars. Ask NHTSA to do the rulemaking. 
Take all the research that has been done and evaluate it, and 
show that these systems work, can be used. They are being used 
now on the highway. If they are used now on the highway, why 
can't they be in every car? I don't get it. And so, that is for 
the interlock.
    The DADSS should certainly be pushed, and NHTSA should be 
given an instruction to do that and a date for getting them 
into cars.
    Mrs. Dingell. Mr. Kelly?
    Mr. Kelly. I think the public education campaign needs to 
be ramped up and some oversight on that and what is happening 
there, especially working with NHTSA. What they are doing from 
their involvement is helpful, too.
    Mrs. Dingell. OK. I am going to move quickly.
    Ms. Witty, I am going to switch subjects because I am down 
to 20-some seconds.
    In States that have mandatory first-offender interlock 
laws, have you seen a reduced number of alcohol-related 
fatalities?
    Ms. Witty. Yes. Yes, by about 16 percent. Yes.
    Mrs. Dingell. Ms. Claybrook, what do you think is needed to 
have the other 18 States adopt mandatory first-offender 
interlock laws?
    Ms. Claybrook. Well, this Congress could require that the 
States do that. Just like they did on age 21 and .08, have a 
penalty, maybe a 2- or 3-year phase-in, and then, a penalty 
apply. And as I said, the penalty is never going to apply 
because all the States have always done it.
    Mrs. Dingell. Ms. Witty, what is the cause of resistance 
from States that haven't implemented the mandatory first-
offender laws?
    Ms. Witty. That is a good question.
    Mrs. Dingell. So, we will get you to answer that for the 
record because I am now over.
    Ms. Witty. I don't understand that.
    Mrs. Dingell. Can I submit questions for the record, Madam 
Chair?
    Ms. Schakowsky. Without objection, so ordered.
    Mrs. Dingell. Thank you.
    And I also request unanimous consent from the committee to 
submit the full text of a report from the National Academy of 
Sciences, which has items we should all be considering as we 
are working this issue.
    Ms. Schakowsky. Without objection, so ordered.\1\
---------------------------------------------------------------------------
    \1\ The report has been retained in committee files and also is 
available at https://docs.house.gov/meetings/IF/IF17/20190314/109109/
HHRG-116-IF17-20190314-SD004.pdf.
---------------------------------------------------------------------------
    Mrs. Dingell. Thank you.
    Sorry I had to be so fast.
    Ms. Schakowsky. The gentlewoman yields back.
    There are other things for the record: a letter from the 
Coalition for Future Mobility--I am asking unanimous consent to 
enter all of these into the record--a letter from the Consumer 
Technology Association, a letter from Securing America's Future 
Energy, and a letter from the American Beverage Licensees on 
drunk driving and technology.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. Schakowsky. Let me just say that this hearing has 
clearly raised a number of questions about whether NHTSA should 
prioritize or is prioritizing the DADSS program. I think it 
should be, but we want to hear. And we will have the NHTSA 
Administrator before the subcommittee for an oversight hearing. 
But, in the meantime, I plan to send a letter to NHTSA 
requesting information about its current commitment to, and 
future plans for, the DADSS program.
    So, at this point, I want to thank all of our witnesses.
    I want to thank all the Members that did come today. I want 
to thank the ranking member. And I want to thank our staff on 
both sides of the aisle for the good work that they did.
    I remind Members that, pursuant to committee rules, that 
each Member has 10 business days to submit additional questions 
for the record to be answered by the witnesses who have 
appeared. I ask each witness to respond promptly to any such 
requests for information that you may receive.
    And at this time, the subcommittee is adjourned.
    [Whereupon, at 11:54 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

             Prepared Statement of Hon. Frank Pallone, Jr.

    You will hear this statistic or some form of it many times 
today--more than 10,000 people die every year from drunk-
driving crashes. It is the leading cause of traffic crash 
deaths in the country. In my home State of New Jersey, drunk 
driving killed 125 people in 2017. And we shouldn't forget that 
drunk driving not only kills the people who drink and drive, it 
often kills others.
    This committee has spent lots of time over the past few 
years exploring ways to make our roads safer. Yet, this issue 
is rarely discussed. So I am glad we are finally shining a 
light on the problem.
    The thing is, drunk driving is preventable. But the 
statistics haven't really changed since the mid-1990s. Drunk 
driving has killed around 10,000 people every year for the past 
25 years. That's more than 250,000 people who did not have to 
die.
    We know it's bad. The people who drive drunk know its bad. 
But despite the statistics and despite all the tragic stories, 
they still choose to drive drunk-whether it's because they are 
too impaired to make a reasonable decision, or they can't read 
their own level of intoxication.
    We can no longer rely only on education campaigns or 
punishment after the fact. The average drunk driver has driven 
drunk more than 80 times before the first arrest. Fifty to 75 
percent of drunk-driving offenders will drive drunk again. We 
need to explore the ways we can stop this cycle.
    There are devices available today to help. Many State laws 
require ignition interlocks, which prevent the car from 
starting if alcohol is detected through a breathalyzer or other 
system, for repeat offenders. Now 30 States and Washington, DC, 
require ignition interlocks even for first-time offenders. 
These devices have been shown to be very effective is stopping 
repeated offenses while they are installed.
    Ignition interlocks, while quite effective, are generally a 
temporary measure, used as a punishment after someone is caught 
driving drunk. Use of the device can be intrusive-it may take 
up to 30 seconds to get a reading.
    The National Highway Traffic Safety Administration teamed 
up with a group of automakers, the Automotive Coalition for 
Traffic Safety, or ACTs, to engage in a research program to 
study advanced technology to help eliminate drunk driving.
    The program, known as the Driver Alcohol Detection System 
for Safety, or DADSS, Program has been exploring technology to 
automatically detect when a driver is intoxicated and prevent 
the car from starting. Unlike current interlock devices, DADSS 
technology would not affect normal driving behavior.
    The program is looking at a breath-based system and a 
touch-based system. Each of these technologies would be fully 
integrated into vehicles. The hope is that these technologies 
could be made available as an option for every new car or for 
installation in cars previously purchased. This may be 
particularly important for parents with teens just learning to 
drive.
    The DADSS program shows a lot of potential to significantly 
reduce drunk driving. The program started 10 years ago, and 
it's made significant progress developing these technologies. 
But I'm concerned that progress has stalled. DADSS technology 
is being tested in a few cars. But a few cars aren't enough.
    I look forward to hearing today about how we can encourage 
progress in the DADSS program as well as any other vehicle 
technology that can help eradicate drunk driving and save 
thousands of lives.
    Thank you, and I yield the balance of my time to 
Congresswoman Dingell.

                 Prepared Statement of Hon. Greg Walden

    Good morning, and thank you Chair Schakowsky for holding 
today's hearing on drunk driving and ways in which we can use 
technology to help prevent it. I would like to note that last 
Congress, this subcommittee held a hearing to examine the 
growing problem of drug-impaired driving. The fact is, impaired 
driving, whether it be alcohol-impaired or drug-impaired, is a 
serious public risk that continues to tragically cut so many 
lives short.
    Nearly 11,000 Americans lose their lives on our roadways 
each year because of the reckless decision to get behind the 
wheel after having consumed alcohol. That is almost 1 person 
every 48 minutes. Just think, while we are here discussing ways 
in which we can address this problem, we will lose several 
lives. It is simply unacceptable. Data indicates that younger 
adults are more at risk to be involved in an alcohol related 
fatal crash. Among fatal crashes, the highest percentage of 
drunk drivers is for ages 21 to 24 followed by 25 to 34. We 
must promote innovation and education to save our youth.
    Drug-impaired driving has also taken hold on our roadways 
and the terrible scourge of opioid addiction shows its lethal 
effects on driving.
    The number of American drivers killed in car crashes in 
which drugs were detected has steadily increased. Just a couple 
years ago, almost half of all fatally injured drivers with 
known results tested positive for drugs. The 10-year trend 
demonstrates that drug-impaired driving has increased despite 
seeing decreases in alcohol-impaired driving. But let me be 
clear, it is never acceptable to drive impaired. Even the 
slightest consumption of alcohol or drugs can have devastating 
effects.
    Thankfully, we are seeing technological advancements and 
innovations that can help address the risks of impaired 
driving. These technology-based solutions include ridesharing 
companies giving consumers more transportation options, 
appropriate uses of ignition interlock devices for those 
convicted of driving impaired, breath- and touch-based sensors, 
and self-driving vehicle technology.
    Taking a step back, the committee has been focused on 
roadway safety and technology to improve safety on the roads 
throughout our history. With the recent rises of highway 
fatalities, I would encourage this subcommittee to continue to 
support new technologies that can drive that number down as we 
see incredible investment and growth trajectories for companies 
developing self-driving technologies.
    Last Congress, this committee focused on self-driving 
vehicle technology that could drastically reduce impaired 
driving from our roadways altogether. We worked across the 
aisle in a bipartisan fashion to help address the unacceptable 
number of lives we lose each year and crafted the SELF DRIVE 
Act.
    The SELF DRIVE Act was championed by Representatives Latta, 
Schakowsky, Upton, and Dingell--I want to thank you all for 
your leadership on this issue. I believe the SELF DRIVE Act was 
an example of this committee at its absolute best: working 
together to address a real public crisis. As a result of that 
approach, we were able to pass the SELF DRIVE Act out of 
committee on a 54-0 vote and it eventually unanimously passed 
the House.
    As a reflection of our commitment to support technology to 
reduce all highway fatalities, including those caused by drunk 
driving, I hope this committee will prioritize this bipartisan 
legislation issue to improve safety, increase mobility options, 
and support American innovation and jobs.
    Reducing impaired driving is a bipartisan issue. We all 
care deeply about protecting lives on the roadways and doing 
what we can to address the safety risk of impaired driving. 
This issue has impacted every person in this room and I hope 
with that in mind we can continue to work together on 
solutions.
    I want to thank our distinguished panel for being here 
today and I look forward to our discussion.
    Thank you. I yield back.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

                                 [all]
</pre></body></html>
